T7

APPehduc A"
QQwioaJ Of fffaldln Ci/louit Comt of A pfitCi I. £

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3416

Dionte Dortch
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:18-cv-00339-JFB)
JUDGMENT

Before SHEPHERD, ERICKSON, and STRAS, Circuit Judges.

This appeal comes before the court oh appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
April 08,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

t

APPwQix '£>"
of Bis+ucf Ceutaf d^uum ^htas

/

'I

Case: 8:15-cr-d0343-JFB-MDN

•Doc- ,3ht#: 823-1

DatGhFiied: 06/23/zu^u-

Kctye x ui u

IN THE UNITED STATES DISTRICT COURT
FOR.THE DISTRICT OF NEBRASKA
UNITED'STATES OF AMERICA
8:15CR343

Plaintiff,
vs.

MEMORANDUM AND ORDER

DIONTE DORTCH
Defendant.

This matter is before the Court on defendants
Vacate, Set Aside, or

Motion under 28 U.S.C,. § 2255 to

Correct Sentence by a Person in Federal Custody. Filing No. 714.

The government has

answered and objected to the motion.

Filing No. 774.

The

“Motion for Rule 6
defendant (“Dortch”) subsequently filed two reply briefs and a
Discovery.” Filing Nos. 779, 783, and 821.
BACKGROUND

I.

On January 27, 2016, the government brought
Dortch and five other defendants for associating
Crip gangs. Dortch was charged with violating
Influenced and

a superseding indictment against

with the 40th Avenue and 44th Avenue
18 U.S.C. § 1962(d) of the Racketeering

Corrupt Organizations Act (“RICO"), being a felon in possession of a

firearm under 18 U.S.C. § 922(g)(1) and 924(a)(2) witness tampering in violation of 18
U.S.C.

§ 1512(b)(1), 1512(b)(2)(A), and 1512(b)(3), as well as attempted obstruction of

justice in violation of 18 U.S.C. § 1512(c)(2).
On May 23, 2017, Dortch pleaded guilty to all four charges. Filing Nos. 470 and
768.

After entering a plea of guilty to

four charges of the fifteen-count superseding

indictment, Dortch was sentenced to concurrently serve
1

240 months for Count 1 (RICO

1

Case: 8:15-cr-00343-JFB-MDN

conspiracy), Count 11

Document#: 823-1

Date Filed: 06/23/2020

Page 2 of 8

(witness tampering), and Count 12 (attempted obstruction of

justice) and 120 months for Count 10 (felon in possession of a firearm) to be followed by
a three-year term of supervised release. Filing No. 33, Transcript (“Tr.”) at 1, 13, 17, 18
and Filing No. 518

Tr. at 1-2. At his plea hearing, Dortch testified that he understood the

charges against him and that he was satisfied with his attorney’s representation.

Filing

No. 768, Tr. at 5-7. After the Court read Dortch his rights and the consequences of
waiving those rights, Dortch voluntarily pleaded guilty.
understood the penalties
Counts 1, 11, and 12 as

Id at 17-22.

He indicated he

he faced, including the twenty-year statutory maximums for
well as the ten-year maximum for Count 10. Id at 8. He also

understood that, if he did not plead guilty, the government planned to bring a second
Id. at
superseding indictment where Dortch would face a statutory minimum of 85 years.
9-10.
The plea agreement states:
“The defendant further knowingly and expressly waives any and all
rights to contest the defendant’s conviction and sentence in any post­
conviction proceedings, including any proceedings under 28 U.b.U S^bb,
except:
(a) The right to timely challenge the defendant’s conviction and the
sentence of the Court should the Eighth Circuit Court of Appeals or the
United States Supreme Court later find that the charge to which the
defendant is agreeing to plead guilty fails to state a crime.
(b) The right to seek post-convictions relief based on ineffective
assistance of counsel.”
Filing No. 470, Tr. at 6.
Dortch timely filed his motion under 28 U.S.C. § 2255 (hereinafter “§ 2255 motion )
on July 16, 2018. Filing No. 714. Along with general claims of innocence, Dortch brings
four main arguments. First, he argues he was wrongly charged under the RICO statute.
Next he contends the RICO statute is unconstitutionally vague. He then argues that the
2

p.

Case: 8:15-cr-00343-JFB-MDN

Document#: 823-1

Date Filed: 06/23/2020

Page 3 ot b

invalidly rescinded. His final, and main, argument
original plea offer of fifteen years was
is that he received ineffective assistance of counsel. See generally Filing No. 715
LAW AND ANALYSIS

II.

Standard of Review

A.

Under 28 U.S.C. § 2255, a federal prisoner may seek relief if his “sentence was
imposed in violation of the Constitution or laws of the United States, or ... was in excess
of the maximum authorized by law.” 28 U.S.C. § 2255(a).
counsel is appropriately raised in collateral proceedings.

Ineffective assistance of

See United States v. Hughes,

330 F.3d 1068, 1069 (,8th Cir. 2003) (citing United States v. Woods, 270 F.3d 728, 730
fundamental right of criminal defendants; it
(8th Cir. 2001)). “The right to counsel is
i a
assures the fairness, and thus the legitimacy, of our adversary process.

Kimmelman v.

Morrison, 477 U.S. 365, 374 (1986). Under the Sixth and Fourteenth Amendments, a
criminal defendant is entitled to assistance
right.

See Gideon v

387, 392-93 (1985).
counsel.’”

of counsel at trial and at his first appeal of

. Wainwright, 372 U.S. 335, 344 (1963); Evitts v. Lucey, 469 U.S.
“The right to counsel [includes] the right to reasonably effective

Strickland v. Washington 466 U.S. 668, 686 (1984) (quoting McMann

V.

Richardson, 397 U.S. 759, 771, n. 14 (1970)).
In order to make a claim of ineffective assistance of counsel, a petitioner must
satisfy the Strickland standard, which requires the defendant to show “that his lawyers
performance fell below the minimum standards of professional competence (deficient.
performance) and that there is a reasonable probability that the result of the proceedings
would have been different if his lawyer had performed competently (prejudice)

Alaniz v.

United States, 351 F.3d 365, 367-68 (8th Cir. 2003)). Deficient performance “is that which

: 3

V

Case: 8:15-cr-00343-JFB-MDN

Document#: 823-1

Date Filed: 06/23/2020

Page 4 ot a

t
falls below the ‘range of competence demanded of attorneys in criminal cases.
Sinisterra v. United States

600 F.3d 900, 906 (8th Cir. 2010) (quoting Strickland, 466

U.S. at 687). “The standard is an objective one viewed in light of professional norms
prevailing when the representation took place.” Sinisterra, 600 F.3d at 906 (citing Bobby
v. Van Hook,

130 S. Ct, 13, 16 (2009) (per curiam)) (also citing Strickland, 466 U.S. at

686). We must consider “whether counsel’s assistance was
the circumstances.”

Strickland, 466 U.S. at 688.

reasonable considering all

The court “must judge the

reasonableness of counsel’s challenged conduct on the facts of the particular case
viewed as of the time of counsel’s conduct.” Id. at 690.
To establish prejudice under Strickland, a petitioner “must show that there is a
reasonable probability that, but for counsel’s unprofessional errors the result of the
proceeding would have been different, " Id. at 694. “An error increasing a defendant’s
sentence by as little as six months can be prejudicial within the meaning of Strickland.
Alaniz, 351 F.3d at 368 (citing Glover v. United States, 531 U.S. 198, 202-04 (2001); see
also United States v. Spigner, 416 F.3d 708, 711 (8th Cir. 2005).
B.

Plea Agreement

"A defendant must enter into a plea agreement knowingly and voluntarily for [it] to
be valid." United States v. Andis, 333 F.3d 886, 890 (8th Cir. 2003). To ensure that a
defendant knowingly and voluntarily enters into the plea agreement, the district court
should "properly question [the] defendant about his or her decision to enter that
agreement and waive the right to appeal.” Andis, 333 F.3d at 890-91 . The record shows
that the Court thoroughly questioned Dortch about the plea agreement and made sure he
was competent to plead guilty and knew what rights he forfeited by pleading guilty . There

4

V

1 .

'.

Date Fiiea: u

Document#: 823-1

Case: 8:15-cr-0034'3-JFB-MDN

r uyo ~

^

is no evidence to indicate
guilty. The

that Dortch was incompetent or was

defendant agreed that he was guilty

coerced into pleading

understood the charges against him,

knew the consequences of pleading guilty and
had discussed the case with his lawyer
did not plead guilty, had the potential to face an 85-year minimum
understood that, if he
15-year plea agreement was invalidly
Dortch’s argument that the original
sentence
Dortch agreed to forfeit his right to appeal and
revoked, is without merit. Even if it were,
voluntarily and knowingly entered into the plea
collaterally attack his conviction when he
agreement.
RICO Statute

C.

In his brief, Dortch argues
indictment do not
at 4.

that the charges brought forth in the superseding

“qualify under the RICO statute as predicate acts

Dortch also

states that "[n]one of the victims were gang

Filing No. 715, Tr.

members or had any

Dortch should not have been tried
knowledge of the charged conspiracy ” and therefore
not entitled to bring this argument under
under the RICO statute. Id However, Dortch is
the signed plea agreement and no
argument,

exception applies. Even if he were able to bring this

it is without merit as it relies on a misinterpretation of case law and the RICO

statute itself.
Dortch also argues

that the RICO statute is unconstitutionally vague. Filing No.

715, Tr. at 13. Again, arguably, this is

argument cannot be brought under the terms of

the plea agreement. However, even if it did, the
his claim. See Johnson v. United States

caselaw he relies upon does not support

135 S.Ct. 2551 (2015) (pertaining to Armed

Career Criminal Act), see also Sessions v. Dimaya
Immigration and Nationality Act).

138 S.Ct. 1204 (2018) (regarding the

Neither the United States Supreme Court nor the United

5

V

Case: 8:15-cr-00343-JFB-MDN

Uaie rneu.

Document#: 823-1

\J\Jt

found the RICO statute to be
for the Eighth Circuit have ever
States Court of Appeals
626 F.2d 1358, 1364
See United States v. Anderson
unconstitutional for vagueness
challenged the constitutionality of RICO
"Some defendants have
(8th Cir. 1980) (noting
court yet has found the Act
and double jeopardy but no
on the grounds of vagueness
unconstitutional.’).

Dortch’s claim is without merit.

Ineffective Assistance of Counsel

D.

Dortch contends that he
that Attorney

received ineffective assistance

Steenbock had a conflict of interest as she

alleged 40th and 44th Avenue gang
firearm charge.

of counsel.

He argues

simultaneously represented.

of a
member Antoine Gaye for a felon in possession

Filing No. 715, Tr. at 10-13

as a member of
. Dortch alleges that Gaye was

Id. at 11-12.
and co-conspirator in
in the RICO conspiracy.
the 40th Avenue Crip gang
ent nor was he ever mentioned
not named in the superseding indictm
However, Gaye was
a witness and a coDortch misstates that Gaye was
in any of the evidence or testimony
intentionally failed to disclose
his brief that Steenbock
conspirator. Dortch states in
from being charged in the
Crip gang in order to keep him
Gaye's ties to the 40th Avenue
Steenbock as the lawyer of [Gayel had no
“Ms.
RICO conspiracy. See id. at 11 (stating
having knowledge of the
Mr. Gaye her current client as
absolute interest in painting
Antoine Gaye from being charged in the
intricate details of the RICO conspiracy to save
evidence to substantiate these claims. The
RICO.”). Dortch has offered no
40th ave
is necessary in this case.
Court finds that no evidentiary hearing
A § 2255 movant is entitled to
"nSed
and the files ^ records
„No hearing jS required where the claim is
to no relief.” 18U.S.C. § 225 .
^r.rrnativfilv refutes the factual
inadequate on its tee or

and citations omitted).
6

